No. 19-253

In The Supreme Court of the
United States
____________________________
STRAIGHT PATH GROUP IP, INC.,
v.

Petitioner,

APPLE, INC. and CISCO SYSTEMS, INC.,
Respondents.
_____________________________
On Petition For A Writ Of Certiorari To the United
States Court Of Appeals For the Federal Circuit
PETITIONER’S REPLY BRIEF
Nathan Lewin

Counsel of Record

Alyza D. Lewin
LEWIN & LEWIN, LLP
888 17th Street, NW
4th Floor
Washington, DC 20006
(202) 828-1000
nat@lewinlewin.com

Attorneys for Petitioner

1
ARGUMENT
I.
WHEN IT CONCEALS REASON(S) FOR
AFFIRMANCE, THE FEDERAL CIRCUIT
INVITES INJUSTICE
Apple’s Brief in Opposition demonstrates that due
process of law is denied when the Federal Circuit
affirms with no explanation. No one (except the
judges on the Federal Circuit panel) knows why the
Federal Circuit summarily rejected petitioner’s
appeal even though two serious legal issues were
argued. By concealing their rationale the judges of
the Federal Circuit have granted Apple the liberty of
aggressively and erroneously asserting in this Court
that petitioner’s patent-infringement lawsuit is
“frivolous” and “meritless,” and that petitioner
should be sanctioned for initiating it.
In fact, as Apple acknowledges, petitioner
prevailed in appeals it took in 2015 and 2017 to the
Federal Circuit from attacks on its patents. Apple
Br. in Opp. 2. Petitioner had every reason to expect,
in good faith, that it would prevail again in the third
round. Petitioner submitted a 54-page brief to the
Federal Circuit. Apple responded in that court with
a brief of 47 pages, and Cisco with 63 pages. The
Federal Circuit’s clandestine affirmance has
effectively encouraged Apple to submit an
intemperate and exaggerated response in this Court.
Our petition asks this Court to rule that a Federal
Circuit panel may not deliberately conceal its
rationale, as panels of the Federal Circuit have
ubiquitously done under the Circuit’s Rule 36 in

2
many patent appeals raising only legal issues.
Fundamental due process principles and this Court’s
supervisory authority over lower federal courts
support a rule requiring the Federal Circuit to state,
even if very briefly, why it decides to affirm
whenever an appeal presenting only legal issues
comes before it.
II.
THE SUMMARY-AFFIRMANCE RULES OF
CIRCUITS THAT DIFFER FROM THE
FEDERAL CIRCUIT ARE NOT
“INCONSEQUENTIAL MINOR VARIATIONS”
Both Apple and Cisco discount and disparage the
substantial differences between the broad language
in Federal Circuit Rule 36 and the Rules of other
Circuits that authorize summary affirmances but
require some disclosure, even if very brief, of the
court’s reason for affirming. Apple claims that the
contrasting language of Federal Circuit Rule 36 and
the Rules of other Circuits is an “inconsequential
minor variation” or an “entirely formalistic”
difference. Apple Br. in Opp. 12, 15. Cisco asserts
that our petition “attempt[s] to manufacture a circuit
conflict.” Cisco Br. in Opp. 5.
The standards are, however, worlds apart. For
example D.C. Circuit Rule 36(c) – unlike Federal
Circuit Rule 36 – authorizes summary affirmance
only with “a notation of precedents or accompanied
by a brief memorandum.” Similarly, the Fourth
Circuit’s Local Rule 36.3, which allows a panel to
affirm summarily if the panel “sets forth . . . the
reason or reasons” for its decision is very different

3
from Federal Circuit Rule 36 which permits an
affirmance with no expressed “reason or reasons”
whatever.
If there is no substantive difference between
Federal Circuit Rule 36 and the summaryaffirmance Rules of other Circuits, why did the
Eleventh Circuit in 2006 jettison the summaryaffirmance language that it inherited from its parent
Fifth Circuit when the Eleventh Circuit was created
in 1986? Neither respondent attempts to explain
why the Eleventh Circuit would have chosen
meaninglessly to amend the language of a Rule that
had, since the Circuit was created, governed
summary affirmances.
III.
REQUIRING A BRIEF DISCLOSURE OF THE
REASON FOR AFFIRMANCE IS NOT THE
SAME AS REQUIRING A FULL OPINION
Both respondents substantially overstate our legal
position in their effort to persuade this Court to
reject our petition. We do not contend, as they
assert, that full opinions must be issued in all
appeals to the Federal Circuit or to any other federal
court of appeals. We maintain only that it is
impermissible to conceal totally the Federal Circuit’s
rationale for affirming a district court opinion when
only legal issues have been presented and argued on
appeal.
We urge this Court to reverse the decision below
and hold that a federal appellate court satisfies its
constitutional duty only if the panel discloses why it
reached its result. The stated reason may be no

4
longer than two or three sentences, or may reveal its
rationale by citing binding precedent. The summaryaffirmance Local Rules of many Circuits require no
more, and we do not challenge those Rules.
IV.
PAST DENIALS OF CERTIORARI ARE NOT
GROUNDS FOR DENYING THIS PETITION
Both respondents rely heavily on this Court’s
record of denying certiorari in recent Terms when
parties that lost appeals in the Federal Circuit under
Federal Circuit Rule 36 sought review. Cisco Br. in
Opp. 12, n.5; Apple Br. in Opp. 10-11. It has long
been well-established, however, that denials of
certiorari should be given no precedential effect.
Maryland v. Baltimore Radio Show, 338 U.S. 912,
919 (1950); Brown v. Allen, 344 U.S. 443, 497, 554555 (1953). Moreover, our petition is more limited
than the petitions filed in the cases cited by the
respondents. This case concerns an appeal (a) in
which only legal issues were presented and (b) in
which a district court decision, rather than a ruling
by the PTAB, was challenged.
V.
THIS CASE WILL AFFECT MORE FEDERAL
CIRCUIT DECISIONS THAN THE FOUR
FEDERAL CIRCUIT CASES NOW
ON THE COURT’S DOCKET
The respondents claim that certiorari should be
denied because this case is unimportant or not
“apropos.” Apple Br. in Opp. 19; Cisco Br. in Opp. 34. They do not, however, dispute that the Federal
Circuit now decides a huge number of appeals with a

5
Rule 36 affirmance. If that practice is disapproved by
this Court and the Federal Circuit is henceforth
required to provide some explanation for a summary
affirmance, many more future Federal Circuit cases
will be affected by such a decision than by this
Court’s decisions in all the Federal Circuit cases now
on its docket. See Petition for Certiorari 19-20.
Hence this case cannot accurately be characterized
as “unimportant.”
CONCLUSION
For the foregoing reasons and those presented in
our Petition for a Writ of Certiorari, this Court
should grant certiorari and reverse the decision of
the Federal Circuit.
Respectfully submitted,
Nathan Lewin
Counsel of Record
Alyza D. Lewin
LEWIN & LEWIN, LLP
888 17th Street NW
4th Floor
Washington, DC 20006
(202) 828-1000
nat@lewinlewin.com
October 2019

Attorneys for Petitioner

